OIG Investigative Reports, Press Release: Harrisburg, PA June 29, 2010 - Federal Officials Announce the Sentencing of a Luzerne County Businessman
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Middle District of Pennsylvania
William J. Nealon Federal Building
235 N. Washington Avenue
P.O. Box 309,  Suite 311
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax  (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754,, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717)  221-4493/ 221-2246 or (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
PRESS RELEASE
FOR IMMEDIATE RELEASE
June 29, 2010
CONTACT:   Peter J. Smith
U.S. Attorney
(717) 221-4482
FEDERAL OFFICIALS ANNOUNCE THE SENTENCING OF A LUZERNE COUNTY
BUSINESSMAN
Peter J. Smith, United States Attorney for the Middle District of Pennsylvania; Janice Fedarcyk,
Special Agent in Charge, Federal Bureau of Investigation; Troy Stemen, Acting Special Agent in
Charge, Internal Revenue Service-Criminal Investigation Division; and Kathy Tighe, Inspector
General of the U.S. Department of Education, Office of Inspector General jointly announced today
that Richard Emanski, age 66, of Harvey’s Lake, Pennsylvania, was sentenced today by Judge
Thomas I. Vanaskie of the United States Court of Appeals for the Third Circuit, sitting by special
designation in the United States District Court. Judge Vanaskie sentenced Emanski to five months’
imprisonment, two years supervised release and a $10,000 fine.
Emanski provided and installed free carpeting of a value of more than $1,000 but less than $5,000 in
the residence of a member of the Wilkes-Barre Area School District Board of Education as a reward
for support provided by the Board Member for a contract that benefitted Emanski’s business. In
October 2009, federal officials announced that Emanski was being charged with corrupt payment of a
reward for official action.
According to U.S. Attorney Smith, to date, thirty individuals have been charged with criminal conduct
since January 2009 in the on-going investigation targeting public corruption in Luzerne County.
This case is part of an on-going investigation by the Federal Bureau of Investigation and the Internal
Revenue Service and is being prosecuted by a team of federal prosecutors led by Senior Litigation
Counsel Gordon Zubrod and includes Assistant U.S. Attorneys William Houser, Michael Consiglio,
Amy Phillips John Gurganus and Criminal Division Chief Christian Fisanick. Smith praised this team
of investigators and prosecutors for their tireless efforts on behalf of the people of Luzerne County.
***
Press Releases Index Page
Top
Printable view
Last Modified: 07/02/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov